No.

IN THE SUPREME COURT OF THE UNITED STATES

RACHEL J. EVENS - Petitioner
Vs.
TIMOTHY J. EVENS - Respondent

CERTIFICATE OF SERVICE

I, Rachel Evens, do swear or declare that on April
2020, as required by
Supreme Court Rule 29,1 have served the enclosed PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a third-party commercial carrier
for delivery within 3 calendar days. The names and addresses of those served are as
follows:

35

COURT OF APPEALS
South Dakota Supreme Court Clerk
scclerkbriefs@uj s. state. s d.us
500 East Capitol Avenue
Pierre, SD 57501

COUNSEL FOR RESPONDENT
Mitch Johnson - mjohn26477@aol.com
David Dillon - dillon@rushmore.com
2902 W. Main Street Suite 1
Rapid City, SD 57702

I declare under penalty of perjury that the foregoing is true and correct.
Dated this 4”^ day of April, 2020.

Rachel Evens, pro-se litigant
PO Box 273
Florence, MT 59833

ELIZABETH A. JONES
j,
a
«

36

NOTARY PUBLIC for the
State of Montana
Residing at Stevensville, Montana
My Commission Expires
September 13, 2020

